  U.S. Department of the Interior
  Office of Inspector General




         ADVISORY REPORT


 PROPOSAL TO MODIFY THE MUNICIPAL AND
INDUSTRIAL WATER CONTRACTORS’ CAPITAL
AND OPERATION AND MAINTENANCE DEFICIT
   OBLIGATIONS ON THE CENTRAL VALLEY
    PROJECT, BUREAU OF RECLAMATION

              REPORT NO. 00-I-281
                  MARCH 2000
U.S. Department of the Interior                             Office of the Inspector General


                              EXECUTIVE SUMMARY

        Proposal To Modify the Municipal and Industrial Water Contractors’
            Capital and Operation and Maintenance Deficit Obligations
                on the Central Valley Project, Bureau of Reclamation
                                Report No. 00-I-281
                                    March 2000


BACKGROUND

The Central Valley Project, located in California, was authorized by the Congress in 1937
and built in stages, with initial water deliveries beginning in 1949 and the last major stage
completed in 1987. The Bureau of Reclamation (BOR) began delivering Project municipal
and industrial water under terms of individual 40-year water service contracts, which
contained “fixed” water rates. These water rates were supposed to be sufficient to repay the
Government for BOR’s annual operation and maintenance expenses, annual interest expense
on the Government’s construction costs, and an amortized portion of the construction costs,
However, by the 1970s BOR recognized that the use of fixed water rates was not producing
sufficient revenues to pay these expenses and that it could not adjust the rates until the
respective contracts expired. As such, deficit balances were accruing, which the Government
continued to finance.

In 1986, the Congress passed legislation (Public Law 99-546) that required new or amended
Project water service contracts to contain provisions to ensure that water contractors repay
any outstanding deficits incurred by the Government for their share of the Project’s unpaid
expenses. However, according to BOR officials, the existing water contractors or other
parties that contract for the water supply cannot be held legally responsible for these amounts
until they enter into new or amended contracts. In October 1994, BOR estimated that
municipal and industrial water revenues will not increase appreciably until 2005, when a
large number of fixed-rate contracts expire and are subject to renewal. Based on BOR
records, we determined that the accumulated deficit for all Project municipal and industrial
water contractors was $190 million as of September 30, 1998.

Prior to February 1999, the Central Valley Project municipal and industrial water contractors
submitted an undated proposal to modify the amount and computation of the total capital and
operation and maintenance deficit obligations owed the Government. The proposal consisted
of seven principles, which, if accepted, would govern the deficit determination for all Project
municipal and industrial water contractors.
OBJECTIVE

The objective of our review was to determine whether BOR’s acceptance of the proposal
would be in the best interests of the Government.

RESULTS IN BRIEF

We concluded that acceptance of the contractors’ proposal would not be in the best interests
of the Government in that the acceptance would provide an unwarranted Federal subsidy to
the Project’s water contractors. Specifically, Department of the Interior and BOR policy
applied since 1939 requires water contractors to repay the actual construction and financing
costs attributable to municipal and industrial water supplies. Also, BOR’s 1994 Interim
Municipal and Industrial Water Ratesetting Policy, established specifically for the Project
and implemented in accordance with Public Law 99-546, requires BOR to annually account
for any deficit balances to enable it to recover those costs in the future in accordance with
the Public Law. Furthermore, the Congress, in authorizing water projects under Reclamation
law, has historically provided subsidies to irrigation water contractors but not to municipal
and industrial water contractors and has not authorized deficits incurred in operating water
projects to be financed by the Government. Based on our review of available information,
we estimated that if the proposal is accepted, the repayment obligation of 12 of the Project’s
5 1 municipal and industrial water contractors would be reduced by about $114 million and
that future interest revenues would be reduced by about $54 million (present value). We also
believe that accepting the proposal could have precedent-setting impacts on financing and
cost-recovery efforts of the Government and, based on BOR’s Denver Office analysis, could
cost the Government billions of dollars.

Additionally, we found that the $190 million Project deficit was not recorded in BOR’s
official accounting records and related financial statements as an amount due the
Government.

RECOMMENDATIONS

We recommended that BOR’s Commissioner formally reject the water contractors’ proposal
in its entirety, inform the appropriate Congressional committees of any BOR decisions that
would significantly reduce the amount of costs to be recovered from the water contractors,
and properly account for the deficit amounts associated with the Project in accordance with
generally accepted accounting principles and fully disclose this accounting in BOR’s
financial statements beginning with fiscal year 1999.

AUDITEE COMMENTS AND OIG EVALUATION

BOR agreed with the report’s three recommendations. Based on the response, we considered
the recommendations resolved and implemented.




                                              2
                                                                             W-IN-BOR-00 1-99(A)-D


               United States Department of the Interior
                                OFFICE OF INSPECTOR GENERAL
                                         Washington, D.C. 20240



                                                                                  MAR      3 1 .I


                                  ADVISORY REPORT

Memorandum

To:        Commissioner, Bureau of Reclamation

From:      Roger La Rouche q+.Z&+
           Acting Assistant Inspector General for Audits

Subject: Advisory Report on Proposal To Modify the Municipal and Industrial Water
         Contractors’ Capital and Operation and Maintenance Deficit Obligations on
         the Central Valley Project, Bureau of Reclamation (No. 00-I-28 1)

                                      INTRODUCTION
This report presents the results of our review of an undated proposal made to the Bureau of
Reclamation (BOR) by the Central Valley Project municipal and industrial water contractors
to modify the amount and computation of the total capital and operation and maintenance
deficit obligations owed the Government. As of October 29, 1999, BOR had not formally
responded to the proposal. The objective of our review was to determine whether BOR’s
acceptance of the proposal would be in the best interests of the Government.

BACKGROUND

The Central Valley Project, located in California, was authorized by the Congress in I937
and built in stages, with initial water deliveries beginning in 1949 and the last major stage
completed in 1987. BOR began delivering Project municipal and industrial water under
terms of individual 40-year water service contracts,’ which contained “fixed” water rates.
These water rates were supposed to be sufficient to repay the Government for (1) BOR’s
annual operation and maintenance expenses incurred to deliver the water, (2) the interest
expense computed at the Project rate on the Government’s construction costs associated with
building the facilities, and (3) an amortized portion of the construction costs sufficient to
repay the Government’s investment within the Project’s repayment period. By the 197Os,


‘Water service contracts are authorized by the Reclamation Project Act of 1939 and essentially sell water on
a rate-per-acre-foot basis.

                                                     3
however, BOR recognized that the use of fixed water rates for Project water deliveries was
not producing sufficient revenues to pay these expenses. Since the rates were fixed by
contract, BOR could not adjust the rates until the respective contracts expired.2 As such,
deficit balances were accruing, which the Government continued to flnance.3

From 1949 to 1976, BOR computed interest on the Project’s operating deficits by using the
same interest rate (Project rate) that was applied to the Project’s unpaid construction costs.
This rate was 2.5 percent from 1949 to 1973 and gradually increased to 2.654 percent in
 1976. Beginning in 1983, BOR began to account for and track the unpaid expenses by
individual water contractor. In 1986, the Congress passed legislation (Public Law 99-546,
Section 106) that required BOR to apply U.S. Treasury-based interest rates to deficits
occurring after October 1, 1985. The intent of the legislation was to better reflect the costs
incurred by the Government to continue to finance the unpaid expenses and the associated
annual deficits that were accruing on the Project. In addition, Public Law 99-546 required
that new or amended Project water service contracts contain provisions to ensure that water
contractors repay any outstanding deficits incurred by the Government for their share of the
Project’s unpaid expenses. However, according to BOR officials, the existing water
contractors or other parties that contract for the water supply cannot be held legally
responsible for these amounts until they enter into new or amended contracts.

In October 1994, BOR estimated that municipal and industrial water revenues would not
increase appreciably until 2005, when a large number of fixed-rate contracts expire and are
subject to renewal. As such, BOR expects that the deficits will continue to increase until all
the contracts are renewed. Based on BOR records, we determined that the accumulated
deficit for all Project municipal and industrial water contractors was $190 million as of
September 30, 1998, an increase of $143 million since 1986. The deficit balance consists
mainly of interest expense, as shown in Table 1.




‘According to BOR officials, water contractors were required to pay only the amount billed under the terms
of their respective contracts and as such were not legally bound to pay any deficit amount.

“BOR defined deficits as the accumulation of annual operation and maintenance costs and interest costs in
excess of total revenues received from the sale of water under existing water service contracts.

                                                    4
                            Table 1. Central Valley Project Deficit
                                   as of September 30,199s
                                                                                      Amounts*

     Revenues: Water revenues                                                      $128
               Voluntary payments**                                                  31
                  Total revenues                                                               $159
     Expenses: Operation and maintenance                                             51
               Capital interest                                                     194
               Deficit interest                                                     101
               Capital repayment                                                      3
                  Total expenses                                                               349
               Net deficit (total revenues minus total expenses)                             ($190)


     *These amounts represent the revenues and expenses of 41 municipal and industrial water
     contractors that, according to BOR records, had a deficit balance as of September 30, 1998. The
     remaining 10 municipal and industrial water contractors did not have a deficit balance as of that
     date.
     **Voluntary payments represent amounts paid by certain contractors in accordance with the Mid-
     Pacific Region’s August 6, 1992, policy memorandum. This policy allowed municipal and
     industrial water contractors to pay more than what was required by their water service contracts
     in order to reduce or eliminate their deficit, which would in turn reduce future accrued interest
     on their deficit.


In addition to the deficit balances, only about $9 million (2 percent) of the $441 million of
construction costs financed by the Government and allocated to the municipal and industrial
water supply had been repaid by the water contractors as of September 30, 1998. As such,
the total debt the Government continues to finance exceeds $622 million for this municipal
and industrial water supply. The Central Valley Project municipal and industrial water
contractors’ proposal consists of seven principles (see Appendix 2), which, if accepted,
would govern the deficit determination for all Project municipal and industrial water
contractors.

SCOPE
Our review was conducted in September and October 1999, primarily at BOR’s Mid-Pacific
Regional Office in Sacramento, California. We also contacted and interviewed officials from
BOR’s Washington and Denver Offices and the Department’s Office of the Solicitor in
Washington, D.C. To meet our objective, we reviewed and analyzed the contractors’
proposal and its impacts in total; the analyses o’f the proposal performed by BOR; and




                                                     5
applicable laws (including Reclamation law4), policies, and other operating criteria. Our
analysis and conclusions are presented in the “Discussion” section of this report.  -’

We conducted our review in accordance with the “Government Auditing Standards,” issued
by the Comptroller General of the United States. Accordingly, we included such tests of
records and other auditing procedures that were considered necessary under the
circumstances. Because our review was limited to an evaluation of the water contractors’
proposal, we did not evaluate BOR’s system of internal controls over the recovery of Project
costs. However, as discussed in the section “Recording of Project Deficits” in this report,
we noted that BOR had not recorded in its official accounting records or disclosed in its
related financial statements the deficit amounts associated with this water supply. As such,
we made a recommendation, which, if implemented, should correct this deficiency.

PRIOR REVIEWS

During the past 5 years, neither the Office of Inspector General nor the General Accounting
Office has issued any reports that directly related to the objective and scope of our review.

                                          DISCUSSION
We concluded that acceptance of the Central Valley Project municipal and industrial water
contractors’ proposal would not be in the best interests of the Government in that the
acceptance would provide an unwarranted Federal subsidy to the Proj ect’s water contractors.
Specifically, Department of the Interior and BOR policy applied since 1939 requires water
contractors to repay the actual construction and financing costs attributable to municipal and
industrial water supplies. Also, BOR’s 1994 Interim Municipal and Industrial Water
Ratesetting Policy, established specifically for the Project and implemented in accordance
with Public Law 99-546, required BOR to annually account for any deficit balances to enable
it to recover those costs in the future in accordance with the Public Law. Furthermore, the
Congress, in authorizing water projects under Reclamation law, has historically provided
subsidies to irrigation water contractors but not to municipal and industrial water contractors
and has not authorized deficits incurred in operating water projects to be financed by the
Government. Based on our review of available information, we estimated that ifthe proposal
is accepted, the repayment obligation of 12 ofthe Project’s 5 1 municipal and industrial water
contractors would be reduced by about $114 million (see Appendix 1) and that future interest
revenues would be reduced by about $54 million (present value5). We also believe that
accepting the proposal could have precedent-setting impacts on financing and cost-recovery
efforts of the Government and, based on BOR’s Denver Office analysis, could cost the
Government billions of dollars.




4Reclamation law is a term used to refer to the total body of public laws governing the reclamation program,
beginning with the Reclamation Act of 1902 and including all laws amending and supplementing the Act.

‘Present value is a financial term referring to the time value of money, which recognizes that $1 received in
the future is worth less than $1 received today.

                                                      6
Recovering Project Costs
Since enactment of the Reclamation Project Act of 1939,6 it has been the policy of the
Department and BOR to recover actual costs associated with municipal and industrial water
deliveries. In 1949, the Secretary of the Interior stated that construction costs allocated to
municipal water supplies should be fully repaid with interest on any unpaid balance and that
the rate of interest used, unless otherwise authorized, should correspond to the cost ofmoney
to the Government. This policy has been applied consistently over the years, was reiterated
by the Secretary in 1996, and has been supported by Departmental legal opinions. For
example, a 1947 legal opinion stated that the Secretary of the Interior can charge interest in
a water supply contract; a 1948 opinion stated that Section 9(c) ofthe Act requires repayment
of actual construction costs; and a 1980 opinion stated that the Secretary can recover the
amount of interest on money borrowed to operate and maintain facilities. The 1980 opinion
also stated that the Secretary is not limited to using project interest rates chargeable on the
initial investment capital but instead can set the rate to reflect the current cost of money
borne by the Government to finance the facilities.

Based on long-standing Departmental and BOR policy, we believe that BOR is clearly
authorized to recover the Government’s actual costs, including interest and any past
operating deficits, associated with the delivery of municipal and industrial water. This
position is further supported by Section 106 of Public Law 99-546, which requires that any
outstanding Project deficits be repaid. To implement this requirement, BOR developed an
Interim Municipal and Industrial Water Ratesetting Policy in 1994, which requires BOR to
annually account for any deficit balances attributable to each municipal and industrial water
contractor to enable BOR to recover these costs in accordance with the law. Also, based on
our revieiv of Reclamation law, we concluded that the Congress intended that municipal and
industrial water contractors fully repay the Government’s costs associated with municipal
and industrial water deliveries and did not intend that annual operating deficits be paid by
Federal taxpayers. Although we found that the Congress has historically provided subsidies
to irrigation water contractors in the form of noninterest-bearing debt that is subject to their
“ability to pay,” we did not find similar provisions for municipal and industrial water
contractors.

In our opinion, acceptance of the Central Valley Project municipal and industrial water
contractors’ proposal would not be in the best interests of the Government because such
acceptance would result in an unwarranted subsidy financed at the expense of Federal
taxpayers. In that regard, BOR’s Mid-Pacific Region prepared an analysis of the impact that
the proposal’s seven principles would have on the computation of the historical deficit and
capital balances as of September 30, 1997. Following BOR’s methodology, we updated the




%ection 9(c) of the Act authorized the Secretary to enter mto water service contracts to provide water for
municipal and industrial purposes at “such rates as in the Secretary’s judgement will produce revenues at least
sufficient to cover an appropriate share of the annual operation and maintenance cost and an appropriate share
of such fixed charges as the Secretary deems proper.” These fixed charges reflect the interest and capital costs
associated with the construction of the facilities.

                                                       7
computations using BOR’s annual accounting ofProject deficits as of September 30, 1998.’
Accordingly, we estimated that the deficit balances and capital balances would decrease by
about $114 million. Specifically, deficit balances would decrease by $7 1 million, and capital
balances would decrease by $43 million. In addition, we estimated that these decreased
balances would result in lost interest revenues amounting to about $119 million over the
Project’s repayment period. These estimated lost revenues have a present value of about
$54 million.* While these estimates represent a large portion of the dollar impact the
principles would have on the Project deficit through fiscal year 1998, the dollar effect will
be higher because BOR’s analysis and our analysis excluded 39 contractors that would also
be affected by these principles.

In addition to the impact the proposal would have on the repayment obligation of Central
Valley Project water contractors, an analysis prepared by BOR’s Denver Office concluded
that BOR could be subject to similar requests from municipal and industrial water
contractors on all of its projects to waive or forgive interest charges. According to BOR’s
analysis, applying the contractors’ proposal BOR-wide could result in “impacts which
potentially could reach into the billions of dollars.” Similarly, according to BOR’s analysis,
the Department of Energy could be subject to requests for the same waiver of interest from
its power contractors. As such, acceptance of the proposal may have a substantial impact on
the Government’s cost recovery efforts.

Recording Project Deficits
During our review of BOR’s records associated with the Central Valley Project deficits, we
identified an accounting issue that we believe warrants BOR’s immediate attention.
Specifically, we found that BOR’s Finance and Accounting Services had not recorded the
$190 million Project deficit in BOR’s official accounting records and related financial
statements as an amount due the Government. BOR officials told us that the deficit was not
recorded as an account receivable because the current water contractors are not legally
required under the terms of their water service contracts to pay the deficit amounts.
However, as discussed in the section “Recovering Project Costs” in this report, the Project
deficits will become the obligation of contractors that enter into new or renewed contracts
to receive future Project water deliveries. Accordingly, as required by Public Law 99-546,
these deficits will ulti,mately be repaid to the Government. As such, we believe that BOR
should, at a minimum, disclose the existence of the Central Valley Project deficit, report the
cumulative amount of the deficit, and state that the deficit will be repaid by Project water
contractors as required by Public Law 99-546 in a note to its financial statements. We also
believe that BOR should determine what amount of the deficit, if any, should be recorded
as an account receivable or recorded in another asset recognition account in its accounting
records, in accordance with generally accepted accounting principles for the recording of
assets.


‘BOR’s accounting as of September 30, 1998, is included in the computation of water rates for the year 2000.
This information has been released for public comment but had not been finalized as of October 29, 1999.

*In this analysis, we used the 1998 deficit interest rate of 6.625 percent and assumed that the remaining
outstanding obligations would be amortized in equal installments over the Project repayment period.

                                                     8
In conclusion, we believe that BOR should reject the contractors’ proposal because it is not
in the best interests of the Government. Based on the significant monetary impact involved,
we also believe that any decision which reduces the Government’s recovery of Project costs
should be coordinated with appropriate Congressional committees.

Recommendations

We recommend that the Commissioner. BOR:

    1. Formally reject the Central Valley Project municipal and industrial water
contractors’ proposal in its entirety.

    2. Inform the appropriate Congressional committees of any BOR decisions that would
significantly reduce the amount of costs to be recovered from Central Valley Project water
contractors.

    3. Direct Finance and Accounting Services officials to properly account for the deficit
amounts associated with the Central Valley Project in accordance with generally accepted
accounting principles and fully disclose this accounting in BOR’s financial statements
beginning with fiscal year 1999.

BOR Response and Office of inspector General Reply

In the February 23, 2000, response (Appendix 3) to the draft report from the BOR
Commissioner, BOR concurred with the report’s three recommendations. Based on the
response, we consider the recommendations resolved and implemented.

Since the recommendations are considered resolved and implemented, no further response
to this report is required (see Appendix 4).

Section 5(a) of the Inspector General Act (5 U.S.C. app. 3) requires the Office of Inspector
General to list this report in its semiannual report to the Congress. In addition, the Office of
Inspector General provides audit reports to the Congress.




                                               9
                                                                                          APPENDIX 1


               CLASSIFICATION OF MONETARY AMOUNTS                                                   .


                                                                                       Funds To Be
                   Finding Area                                                      Put To Better Use

Recovery of Project Costs                                                               $114 million

Reduction of Future Interest Revenues                                                      54 million*

    Total                                                                               $168 million




*This amount represents our computation, based on U.S. Treasury rates for 1998, of the present value of the
future interest revenues lost.

                                                    10
                                                                                APPENDIX 2
                                                                                 Page 1 of 3



           SUMMARY OF THE CENTRAL VALLEY PROJECT
                  CONTRACTORS’ PROPOSAL

The Central Valley Project municipal and industrial water contractors’ proposal consists of
seven principles, which, if adopted, would govern the deficit determination for all municipal
and industrial water contractors from the beginning of the Project through the fiscal year in
which a final municipal and industrial rate-setting policy is adopted. The principles also
address the transition to a final municipal and industrial rate-setting policy for the Project.
We believe that the seven principles, taken as a whole, do not protect the interests of the
Government and would provide the contractors with an unwarranted Federal subsidy. The
seven principles and our opinions on these principles are as follows:

    - Principle 1. An operation and maintenance deficit would exist in any fiscal year in
which the portion of the Bureau of Reclamation’s (BOR) actual operation and maintenance
expenses (that is, funds appropriated for BOR purposes and expended during that fiscal year
for operation and maintenance of the Project) allocated to a municipal and industrial water
contractor exceeds revenues from the contractor during that year.

     - Office of Inspector General Opinion. Taken by itself, we believe that the principle
appears reasonable. However, operation and maintenance expense is not the only expense
that the municipal and industrial water contractors’ revenues were supposed to cover. The
other expenses include the capital (construction costs) repayment and the associated interest
on capital that the Government has been financing, in combination with the operation and
maintenance expense, for more than 50 years. As such, adoption of this principle would be
contrary to long-standing Department of the Interior and BOR policies regarding repayment
of project costs and Congressional intent in authorizing projects under Reclamation law,
which require water contractors to repay the actual construction and financing costs
attributable to municipal and industrial water supplies.

     - Principle 2. Operation and maintenance deficit balances for each Project municipal
and industrial water contractor would be determined and would accrue interest in accord with
the same principles that govern Project irrigation operation and maintenance deficit balances,
including those contained in the 1986 statute, the 1988 irrigation rate-setting document, and
other BOR documents applicable to operation and maintenance deficit balances for Project
irrigation water contractors.

    - Office of Inspector General Opinion. We believe that this principle is contrary to
BOR policy and Congressional intent ofReclamation law. Adoption of this principle would
have the effect of eliminating from the deficit balances all interest on deficits that occurred
before the effective date of Public Law 99-546. We believe that the deficit balances should
properly include interest computed in accordance with the policies and Reclamation law in
effect at the time that the deficits were incurred. This principle would also change the way
that municipal and industrial water revenues are applied. In establishing its Interim
Municipal and Industrial Water Ratesetting Policy, BOR stated that it believed that the intent
of Public Law 99-546 was to curtail subsidies to municipal and industrial water contractors

                                              11
                                                                                  APPENDIX 2
                                                                                   Page 2 of 3


and therefore established a requirement in the Ratesetting Policy to apply any annual surplus
revenues to the lowest interest-bearing obligation first (the capital balance). In contrast, the
policy applicable to Project irrigation water contractors provides for the applicationof annual
surplus revenues to the highest interest-bearing debt first (the deficit balance). In addition,
we do not believe that the Congress intended that municipal and industrial water contractors
be treated the same as irrigation water contractors with regard to repayment issues, as
discussed in the section “Recovering Project Costs” in this report.

    - Principle 3. Interest on the capital costs allocated to each municipal and industrial
water contractor would be computed at the appropriate Project composite capital interest rate
for each year. Balances of any unpaid capital interest would be carried forward and would
not accrue compound interest.

    - Office of Inspector General Opinion. This method for computing annual capital
interest expense is in compliance with existing BOR policy. However, the provision stating
that compound interest should not be accrued on unpaid capital interest is a significant
departure from Departmental and BOR policy and Congressional intent of Reclamation law.

    - Principle 4. The municipal and industrial water contractors will work with BOR to
establish a final municipal and industrial rate-setting policy which would apply
prospectively.

    - Office of Inspector General Opinion. Taken by itself, we believe that this principle
is reasonable as long as Departmental and BOR policy and Reclamation law are complied
with.

   - Principle 5. All future annual deficits (unpaid operation and maintenance, unpaid
capital interest, and unpaid deficit interest) that arise after implementation of the final
municipal and industrial rate-setting policy would compound at the “deficit” rate.

    - Office of Inspector General Opinion. Taken by itself, we believe that adoption ofthis
principle would not reduce the amount of future cost recovery because this method of
computing deficits and associated interest would be in compliance with current BOR policy
and Reclamation law. We believe that this principle is what the Congress intended when it
enacted Public Law 99-546 except that the Congress expected this treatment to be applied
to all water delivery years beginning in 1986. However, adoption of this principle in
conjunction with the other principles contained in the proposal would significantly reduce
cost recovery, as discussed in the section “Recovering Project Costs” in this report.

    - Principle 6. Beginning with the first year of implementation of the final municipal and
industrial rate-setting policy, each contractor would have the option to pay off its unpaid
capital interest balance and operation and maintenance deficit balance on the same terms as
those given to the irrigation water contractors for operation and maintenance deficit balances
(over a 3 to 5 year period, etc.) or incorporate these balances into future rates at the “deficit”
interest rate. If a municipal and industrial water contractor chooses to incorporate these

                                                12
                                                                               APPENDIX 2
                                                                                Page 3 of 3


balances into future rates, BOR would not require them to be paid off as a condition of
contract renewal.

     - Office of Inspector General Opinion. Taken by itself, except for the reference to the
“same terms as those given to the irrigation water contractors for operation and maintenance
deficit balances,” this principle appears reasonable. Since Reclamation law has historically
treated municipal and industrial water contractors different from irrigation water contractors
in the repayment of the Government’s costs associated with water projects, we believe that
BOR has correctly established a separate repayment policy applicable to municipal and
industrial water contractors.

    - Principle 7. Any voluntary payments made by a contractor would be applied as
directed by the contractor.

    - Office of Inspector General Opinion. Taken by itself, we believe that this principle
is reasonable as long as Departmental and BOR policy and Reclamation law are complied
with.




                                              13
                                                                                     APPENDIX 3
                                                                                      Page 1 of 3




                                                                                     FE6 2 3 ‘ir 10
                                       MEMORANDUM


               Office of the Inspector General
                Attention: Assistant Inspector w for Audits




Subject:       Draft Advisory Report on a Proposal to Modify theMunicipal and Industrial
               Water Contractors’ Capital and Operation and Maintenance Deficit Obligations
               on the Central Valley Prqject, Bureau of Reclamation
               (Assignment No. W-IN-BOR-00 l-99(A)-D)

The Bureau of Reclamation offers the follow-ing comments in response to the recommendations
in the subject report:

WC recommend that the Commissioner, Bureau of Reclamation:

Recommendation 1:

Formally reject the Central Valley Project municipal and industrial water contractors’ proposal in
its entirety.



       Complied. By memorandum dated January 14, 2000. (see attachment) the Regional
       Director: Mid-Pacific Region advised the Central Valley Project municipal and industrial
       water contractors that the proposal as submitted is nqt acceptable. Specilically. certain
       elements of the proposal are unacceptable because they conflict with long-standing
       Reclamation policy and gcncral accounting practices. However, Reclamation is
       committed to seeking a solution that meets the fundamental intcrcsts of all parties and
       will continue to work with the contractors to that end.

Recommendation 2:

Inl‘orm the appropriate Congressional committees of any ROR decisions that would significantly
reduce the amount of costs to be recovered from Central Valley Project water contractors.




                                               14
                                                                                   APPENDIX 3
                                                                                    Page 2 of 3




       Concur. Reclamation will inform the appropriate Congressional committees of any future
       decisions that will significantly reduce the amount of costs to be recovered from Central
       Valley Projccr water contractors. The responsible ofticial is the Commissioner’s Chief of
       Staff.



Direct l:inance and Accounting Services to properly account for the deficit amounts associated
with the Central Valley Project in accordance with generally accepted accounting principles and
fully disclosc this accounting in BOK’s financial statements, beginning with fiscal year 1999.

       Rcsnonse:

       Complied. In fiscal year I999 for the Central Valley Project’s municipal and industrial
       operation and maintenance dcticit. Reclamation recorded an accounts receivable for
        $189.5 million (actual) to include related prior period adjustments for revenue not
       recorded in previous years. This amount was disclosed in Reclamation’s financial
       statements in accordance with generally acceptable accounting standards.




Attachment

cc:    Assistant Secretary - Water and Scicncc, Attention: Laura Brown




                                               15
                                                                                           APPENDIX 3
                                                                                            Page 3 of 3




                  United States Department of the Interior
                                      BUREAU OF RECLAMATION
                                        Mid-Paclflc Rtglonal Offkc
                                            2800 Cottage way
IN   REPLY                          Sacramento. California 95825- 1898
REFER To:
 MP-3000                                     JAN I 4 2000
 ADM- IO.00



 Honorable Jim Patterson
 Mayor of Frcsno
 190 1 East University Avenue
 Frcmo. California 93703

 Subject: Ccn?ral Valley Project (CYP) Municipal and Industrial (hi&I) Operations and Mainrmance
          (O&M) Deficits

 Dear Mayor Patterson:

 she purpose of this letter is to update you on our ongomg efforts within the Bureau of Reclamation
 Reclamation) to address your concems regarding M&I O&M deficits. As we have previously discussed,
 Reclamation agrees that some constructive resolution of this issue is important lo everyone concerned.

 In collaboration with M&I contractor representatives, we transmitted a proposed resolution on
 February 19, 1999, to the Corrqnissioncr of Reclamation. That proposal has been reviewed by
 Reclamation staff and by the DepYhl?mt of rhe Interior Office of the hspaztor General (OIG). The
 Commissioner and the Assistant Secretary of the Interior for Water and Science (Assistant Secretary)
 endorse the general intent of the proposal. However, the OIG and internal staff advise that certain
 etemcnts are unacceptable because they conflict with long-stxncling Reclamation policy and standard
 accounting practices. Accordingly, the Commissioner returned the proposal to the Mid-Pacific Region
 for further action.

 Reclamation is committed to seeking a solution that meets the fundamental interests of nil theparties.
 Considering the feedback we received on the initial proposal, any solution must necessarily confine the
 impact especially as it relates to existing Reclamation policy and generally accepted accountmg practices.
 Region staff is currently pursuing aitematives that meet these criteria. WC expect to have an initial
 assessment completed within the next several weeks and ~111 be in a position to discuss progress at our
 meeting with you or your ropresmtative on January 20,2000, in Rena, Nevada, at 10:00 a.m. at the El
 Dorado Hotel and Casino, 345 N. Virginia Street, Room 2504.




                                                  Regional Director




                                                   16
                                                              APPENDIX 4


                                                                      .
     STATUS OF ADVISORY REPORT RECOMMENDATIONS


Finding/Recommendation
        Reference              Status             Action Required

      1, 2, and 3        Implemented.    No further action is required.




                                    17
                  ILLEGAL OR WASTEFUL ACTIVITIES
                      SHOULD BE REPORTED TO
                 THE OFFICE OF INSPECTOR GENERAL


                    Internet Complaint Form Address


                   http://www.oig.doi.gov/hotline_form.html


                  Within the Continental United States
U.S. Department of the Interior                        Our 24-hour
Office of Inspector General                            Telephone HOTLINE
1849 C Street, N.W.                                    I-800-424-508 1 or
Mail Stop 5341 - MIB                                   (202) 208-5300
Washington, D.C. 20240-0001
                                                       TDD for hearing impaired
                                                       (202) 208-2420


                  Outside the Continental United States

                                    Caribbean Region

U.S. Department of the Interior                        (703) 235-9221
Office of Inspector General
Eastern Division - Investigations
4040 Fairfax Drive
Suite 303
Arlington, Virginia 22203

                                     Pacific Region

U.S. Department of the Interior                        (67 1) 647-6060
Office of Inspector General
Guam Field Office
415 Chalan San Antonio
Baltej Pavilion, Suite 306
Agana, Guam 96911
US. Department of the Interior
Office of Inspector General
1849 C Street, NW
Mail Stop 5341- MIB
Washington, D.C. 20240-000 1

Toll Free Number
      l-800-424-508 1

Commercial Numbers
   (202) 208-5300
   TDD (202) 208-2420
